             August 6, 2003

             MEMORANDUM

             FOR:          M/IRM, John M. Streufert

             FROM:         IG/A/ITSA, Melinda G. Dempsey /s/

             SUBJECT:      Risk Assessment of USAID/Washington’s Management of
                           Telephone Services
                           (Report No. A-000-03-002-S)

             This memorandum is our report on the subject risk assessment. Although
             this is not an audit report, it does contain several suggestions for your
             consideration. We have reviewed your comments and they are included as
             Appendix II.

             For your information, and as a follow-up to this risk assessment, on
             November 30, 2003 we will request a list of accomplishments and
             procedures or programs implemented and/or planned that directly relate to
             our suggestions.

             I appreciate the cooperation and courtesy extended to my staff during the
             risk assessment.

Background   The Telecommunications and Computer Operations Division of the Office
             of Information Resources Management, Bureau for Management
             (M/IRM/TCO), manages telephone services as well as information
             technology activities for USAID/Washington.

             Prior to USAID’s move into the Ronald Reagan Building in 1997, most of
             USAID’s telephone services were provided by the Department of State.
             Thus, to the extent that USAID’s need for telephone services was already
             provided, the Agency did not have flexibility in procuring or improving
             such services. According to data provided by the Telecommunications
             and Computer Operations Division, the cost of telephone services from
             1990 to 1996 was high—$4½ to $6½ million per year—despite cost



                                                                                         1
control measures implemented by the Division. After the move to the
Ronald Reagan Building, USAID was able to institute its own
management of most of its telephone services. USAID’s current budget
for telephone services runs about $2.7 million per year.

The Telecommunications and Computer Operations Division manages
eight major telephone services for USAID/Washington as follows:

•   Calling cards
•   Cell phones
•   Facsimile machines
•   Local service
•   Long distance service
•   Network infrastructure (PBX)
•   Pagers
•   Telephone directory

USAID manages its telephone services through several contracted
suppliers, including Sprint, Verizon, Avaya, AT&T, Nextel, and MCI.
Underlying the number of services provided and the number of contracted
suppliers is a constantly changing technology in the telecommunications
industry. This changing technology has significantly impacted the
availability and use of diverse telephone products and services for
USAID/Washington. It has also added to the complexity of managing
telephone communication services.

During the past decade, the Office of Inspector General has performed no
audits of the management of telephone services by the Office of
Information Resources Management, nor have there been any related
external reviews or evaluations by other organizations. Given the lack of
external independent reviews, including audits, we performed risk
assessments, especially in regard to economy and efficiency, of the major
telephone services of the Telecommunications and Computer Operations
Division of the Office of Information Resources Management.

The General Accounting Office’s (GAO) “Standards for Internal Control
in the Federal Government” (November 1999) notes that internal controls
should provide reasonable assurance that agency objectives are being
achieved, operations are effective and efficient, and assets are safeguarded
against loss. Internal controls consist of the following five interrelated
components. These components are the minimum level for internal
control and provide the basis against which internal control is to be
evaluated.




                                                                               2
1. Management and employees should establish and maintain a control
   environment throughout the agency, one which sets a positive and
   supportive attitude toward internal control and conscientious
   management.

2. Internal control should provide for a risk assessment of the risks the
   agency faces from both external and internal sources.

3. Internal control activities should be effective and efficient in
   accomplishing the agency’s control objectives and help ensure that
   management’s directives are carried out.

4. Information should be recorded and communicated to management
   and others within the agency who need it and in a form and within a
   time frame that enables them to carry out their internal control and
   other responsibilities.

5. Internal control monitoring should assess the quality of performance
   over time and ensure that the findings of audits and other reviews are
   promptly resolved.

This review focused on the second component—risk assessment. The
GAO Standards note that the specific risk analysis methodology used can
vary because of differences in agencies’ missions and the difficulty in
qualitatively and quantitatively assigning risk levels. This review assigned
a risk exposure of high, moderate, or low for each major telephone
service. A higher risk exposure simply indicates that the particular service
is more vulnerable to its program objectives not being achieved or to
irregularities occurring as it primarily affects economy and efficiency.
Appendix I describes in detail our risk assessment scope and
methodology.




                                                                               3
Discussion   The Telecommunications and Computer Operations Division of the Office
             of Information Resources Management, Bureau for Management
             (M/IRM/TCO), is responsible for the following eight major telephone
             services.1 Our assessments of the risk exposure for each of these major
             services, along with the factors used in rating those risks, are described
             below.

               Telephone Service                                   Risk Exposure
               Calling cards                                       Low
               Risk Assessment Factors
               Costs
               • Although costs per minute are substantially higher than desk phone
                  calls, total annual cost runs only about $7,000 and consists only of
                  the cost of user minutes.
               Costs Transparency
               • Detailed monthly cost data is available on a monthly basis.
               Inherent Complexity
               • No technical expertise is required for managing the approximately
                  300 cards issued and the total annual calls of only about 4,000.
               Internal Controls
               • There is no accurate up-to-date inventory of issued and active cards
                  because information on cancelled and returned cards is only
                  irregularly purged from the active file.
               • Standard internal authorization forms are used for the issuance of
                  cards, but there are no written procedures for administration of this
                  program, whether for card requisitioning, billing reviews, inventory
                  maintenance, etc.
               • Cards received from the vendor, but not yet issued to individual
                  employees, are not kept under lock and key.
               • There is no mechanism in place to ensure the return and cancellation
                  of cards possessed by employees being reassigned overseas (calling
                  cards are for USAID/Washington-based employees only).
               • Although detailed call data is received monthly, they are not
                  forwarded to users for certification as required. Instead, billing
                  reviews are essentially of the monthly total to determine if the
                  amount is reasonable based on historically billed amounts.



             1
               Our risk assessments only covered major telephone services managed and under the
             control of the Telecommunications and Computer Operations (TCO) Division. In
             addition to the major services described in this report, TCO is also responsible for
             managing information technology activities, including local area networks, electronic
             mail services, internet connectivity, and wide area network security.

                                                                                                     4
Telephone Service                                   Risk Exposure
Calling cards                                       Low
Risk Assessment Factors
• Over the years, there have been a number of cases of abuse
   involving the use of calling cards, costing USAID several thousand
   dollars. However, the vendor now monitors usage for what it
   believes could be abusive activity and advises TCO for disposition.
Monitoring
• There are no particular monitoring or reporting procedures involved
   with the administration of the calling card program.
Planning
• There are no particular planning processes.
Prior Reviews
• No independent reviews have been performed.


Telephone Service                                 Risk Exposure
Cell phones                                       Moderate
Risk Assessment Factors
Costs
• For the phones that the TCO office is responsible for administering,
   about $100,000 annually is spent to cover the cost of phones,
   accessories, maintenance, and use charges. Because the demand for
   cell phones is perceived to be on the rise, this expenditure is
   expected to increase.
• Phones purchased start at about $75 each, but most recent purchases
   are costing about $300, which includes a standard package of
   accessories.
Costs Transparency
• Management is mainly concerned with overall costs associated with
   cell phones. Unit cost, particularly per minute, is not used as a
   management tool in administering the program, and overall cost per
   minute is not readily available.
• Costs are not readily identifiable because they are not segregated
   within ‘umbrella’ budget codes. Furthermore, other USAID
   Washington offices directly procure cell phones. These costs are
   unknown.
Inherent Complexity
• Cell phone technology, with increased capabilities and available
   features, is rapidly changing. Along with changes in the technology,
   ever-changing user plans are being offered.
• Currently, there are 150 phones, and the average monthly use of
   each is between 200 and 300 minutes.



                                                                          5
Telephone Service                                   Risk Exposure
Cell phones                                         Moderate
Risk Assessment Factors
Internal Controls
• Except for brief guidelines contained in the Automated Directives
   System, there are no documented internal control procedures.
• Billing reviews include determining that the cell phone numbers
   billed are numbers contained in inventory and searching for
   unusually high charges to a specific phone number. Such reviews
   are not performed on a monthly or any set periodic basis. Whatever
   reviews are performed are not documented, and certification of call
   details is not required of cell phone users.
• Phones are purchased and issued merely on the basis of the approval
   signature of the supervisor of an applicant/user. Otherwise, there is
   no established rationale or criteria, including type of phone or user
   plan.
Monitoring
• There is no reporting to management of any kind specifically
   devoted to cell phone matters.
Planning
• There are no specific or formal planning processes involved with
   cell phones.
Prior Reviews
• There have been no formal internal or external reviews of cell phone
   administration.
• There have been some cases of misuse of the phones, which have
   been turned over to respective administrative officers for
   disposition.


Telephone Service                                Risk Exposure
Facsimile machines                               Low
Risk Assessment Factors
Costs
• The total annual cost of new or replacement machines runs between
   $25,000 to $50,000. On average, about 25 machines are replaced
   per year at a cost of $1,000 to $2,000 each.
Costs Transparency
• Maintenance costs administered by another office not in our scope
   runs about $3,000 annually.
• Other Washington offices procure fax machines, the costs of which
   are unknown.
Inherent Complexity
• Service and operation are not technically complex.


                                                                           6
Telephone Service                                   Risk Exposure
Facsimile machines                                  Low
Risk Assessment Factors
• The TCO Telephone Office is responsible for administering about
   150 machines in the inventory.
Internal Controls
• There are no documented internal control procedures for the
   administration of the program.
• Discrepancies were noted in the inventory records, in such
   categories as quantity on hand, manufacturer, and location.
• If a machine repair is estimated to be the arbitrary amount of $500 or
   more, a replacement is ordered. There are no purchase or issuance
   criteria otherwise.
• There is no effective control over repairs and servicing because no
   repair history by machine is maintained.
Monitoring
• There is no reporting to management of any kind specifically
   devoted to fax machine matters.
Planning
• There are no specific or formal planning processes involved with fax
   machines.
Prior Reviews
• There have been no formal internal or external reviews of fax
   machine administration.


Telephone Service                                 Risk Exposure
Local service                                     High
Risk Assessment Factors
Costs
• Calendar years 2002 and 2003 costs were budgeted at $870,000 and
   $800,000, respectively, consisting primarily of fixed lease charges
   for several dedicated (trunk) lines and per-call/minute use charges
   with Verizon.
Costs Transparency
• Costs are not precisely known because local call costs are not totally
   segregated from long distance costs for each vendor.
• There is no assurance that contracted rates are always used for
   billing USAID, and implementation schedules of rate changes are
   not always known.
Inherent Complexity
• The management of this area requires a high level of technical
   knowledge to ensure the economic handling of about 160,000 local
   calls per month.


                                                                           7
Telephone Service                                  Risk Exposure
Local service                                      High
Risk Assessment Factors
Internal Controls
• Internal control procedures are generally not documented.
• TCO lacks sufficient tools, information, and resources to
   comprehensively verify accuracy of contractor billings.
• No mechanism is in place to ensure that, as telephone exchanges are
   added or changed by the local carrier, timely program changes are
   made to the Private Branch Exchange (PBX) to route a given call
   through the cheapest means.
• TCO lacks adequate staff back-up for the highest levels of technical
   job skills.
Monitoring
• Software monitoring tools were cumbersome and time consuming to
   work with and, thus, their utility in analyzing complex traffic
   patterns and capacity utilization of trunk lines has not been fully
   reached.
• Detailed monitoring appears to be done ad hoc and without adequate
   tools or resources.
• The capacity of the dedicated trunk lines appears to be well in excess
   of actual traffic volume.
• Standard performance reporting to more senior management is not
   required; rather, ad hoc issues are covered during regular, periodic
   office meetings.
Planning
• There are no extraordinary technological investments envisioned,
   nor are there any unique needs assessments or processes required.
Prior Reviews
• No comprehensive reviews have been made for several years.
• Audits in other agencies resulted in significantly reduced costs.


Telephone Service                               Risk Exposure
Long distance service                           High
Risk Assessment Factors
Costs
• Calendar years 2002 and 2003 costs were budgeted at $843,000 and
   $649,000, respectively, and consist primarily of per-call/minute
   charges for domestic and international long distance calls routed
   through Sprint and AT&T.
Costs Transparency
• Total cost figures are not precisely known because some local costs
   are included with long distance costs.


                                                                           8
Telephone Service                                      Risk Exposure
Long distance service                                  High
Risk Assessment Factors
• There was no assurance that contracted rates were always used for
   billing USAID, nor did TCO always know the implementation
   schedules of rate changes.
Inherent Complexity
• The management of this area requires a high level of technical
   knowledge to ensure the economic and efficient handling of about
   33,000 long distance calls per month routed through different pricing
   alternatives.
Internal Controls
• Except for abbreviated guidance contained in the Automated
   Directives System, internal control procedures are not documented.
• TCO lacks sufficient human resources to verify the accuracy of
   contractor billings; further, it is difficult to utilize software-
   monitoring tools. Thus, reviews are used essentially for spotting
   obvious problems and detecting trends, versus for verifying user
   minutes at contracted rates.
• TCO lacks adequate staff back-up for the highest levels of technical
   job skills.
Monitoring
• Detailed monitoring appears to have been done ad hoc and without
   adequate tools.
• There is no assurance that the Department of State’s International
   Voice Gateway (IVG) is used to the maximum extent possible. As
   opposed to user charges by Sprint or AT&T, the IVG is a zero-cost
   facility for placing international calls.
• There is no regular, periodic review and verification, as required by
   regulations, that long distance calls are official, authorized calls.
• Standard performance reporting to more senior management is not
   required; rather, ad hoc issues are covered during regular, periodic
   office meetings.
Planning
• Planning is a continuous process of evaluating USAID’s technical
   options, then evaluating suppliers’ rates and ability to deliver
   USAID’s service needs.
Prior Reviews
• No comprehensive reviews have been made for several years.
• Audits in other agencies resulted in significantly reduced costs.




                                                                           9
Telephone Service                                  Risk Exposure
Network infrastructure (PBX—Private                Moderate
Branch Exchange)
Risk Assessment Factors
Costs
• USAID assumed management of the PBX from the Department of
   State in 1998. By doing so, TCO stated it has reduced operating
   costs from about $2.5 million to less than $1 million per year.
• Calendar years 2002 and 2003 costs were budgeted at $850,000 and
   $900,000, respectively, consisting primarily of maintenance,
   miscellaneous equipment, and three full-time, on-site Avaya
   technicians (at an annual cost of about $320,000).
• Future investment costs for replacing the existing PBX, up to
   approximately 3,000 desktop telephones, and related network
   equipment could be several million dollars.
Costs Transparency
• Pricing information for maintenance, equipment, and service
   technicians is readily available.
Inherent Complexity
• The physical configuration of the PBX and the wiring to support the
   USAID/Washington’s telephony operation in the Ronald Reagan
   Building is highly complex.
• This area requires a high level of technical knowledge to ensure that
   PBX services are provided in the most economic, efficient, and
   timely manner over the several alternative telephone routings.
• A high level of technical expertise is required to oversee the Avaya
   contract and technicians.
Internal Controls
• Internal control procedures are generally not documented.
• Miscellaneous purchases of equipment, e.g., new or replacement
   desk phones or special non-standard wiring jobs, are done under a
   Blanket Purchase Agreement (BPA) with Avaya. By the very nature
   of BPAs, scrutiny of purchases is minimal.
• Adequate staff back-up for the highest levels of technical job skills
   is lacking. The work is mostly done by contract, and little risk exists
   that essential work will not be performed when required.
Monitoring
• The on-site (vendor-supplied) technicians monitor PBX operations,
   perform services, and correct problems as they occur.
• In addition, off site, Avaya monitors the performance of critical PBX
   components, e.g., routers and switches.
• There was nothing immediately available for use in the PBX room
   for fire protection.
• A standard reporting (format) to more senior management is not


                                                                             10
Telephone Service                                    Risk Exposure
Network infrastructure (PBX—Private                  Moderate
Branch Exchange)
Risk Assessment Factors
   required; rather, ad hoc issues are covered during regular, periodic
   office meetings.
Planning
• To date, a formal needs assessment has not been performed, even
   though an extraordinary investment may be required to replace the
   PBX system and desk phones with new and evolving technology
   over the next two to five years.
• Telephony operations, especially the PBX, are vulnerable to major
   disruptions of service during a crisis situation.
Prior Reviews
• A Disaster Recovery Analysis and Planning review was performed
   by Avaya in October 2002, which served as a basis for detailed
   recovery planning.
• Otherwise, no prior audits or reviews have been done in this area for
   the last several years.


Telephone Service                                    Risk Exposure
Pagers                                               Low
Risk Assessment Factors
Costs
• Pager leasing and service costs of about $25,000 annually are the
   only costs incurred.
• The simplest pagers lease for about $40 per year, whereas special-
   use pagers (e.g., for hearing impaired) lease for about $300 per year.
Costs Transparency
• Costs involved are readily available and known.
Inherent Complexity
• There is nothing technically complex about the administration or use
   of pagers.
• There are about 160 pagers under lease.
Internal Controls
• There are no documented internal procedures for the administration
   of the program.
• There presently is no requirement to validate pager assignments—
   validation by user organizations has not been done for at least four
   years. TCO made a recent attempt to validate the assignments, but
   no response had been received from the user organizations.
• Inventory records for in-use pagers are inaccurate because control
   procedures are inadequate. Thus, contractor billings cannot be


                                                                            11
Telephone Service                                Risk Exposure
Pagers                                           Low
Risk Assessment Factors
   adequately verified for accuracy.
• Accountability for pagers by employees is not required.
• There are no established criteria or rationale for the issuance of
   pagers.
Monitoring
• There is no reporting to management of any kind specifically
   devoted to pagers.
Planning
• There are no specific or formal planning processes involved with
   pagers.
Prior Reviews
• There have been no formal internal or external reviews of pager
   program administration.


Telephone Service                                  Risk Exposure
Telephone directory                                Low
Risk Assessment Factors
Costs
• Costs are not specifically segregated for budgeting and expense
   tracking purposes. They are believed to be relatively insignificant.
Costs Transparency
• Costs are not known—see above.
Inherent Complexity
• Programming of system changes requires technical expertise.
• Personnel changes, such as rotations and reassignments, require
   multiple changes to unlinked, but interrelated, databases consisting
   of about 12,000 records.
Internal Controls
• The computer-based directory identifies how to make overseas
   directory changes.
• A detailed “how to” procedure was written in December 2002.
Monitoring
• Monitoring of the database accuracy is an Agency-wide
   responsibility and appears to be generally done in a satisfactory
   manner.
• A standard reporting (format) to more senior management is not
   necessary; rather, ad hoc issues are covered during regular, periodic
   office meetings.
Planning
• There are no specific planning processes, but requirements are


                                                                           12
Telephone Service                                Risk Exposure
Telephone directory                              Low
Risk Assessment Factors
   considered in the normal course of work.
Prior Reviews
• There have been no formal internal or external reviews of telephone
   directory administration.




                                                                        13
Conclusion   Our risk assessment of the Telecommunications and Computer Operations
             Division of the Office of Information Resources Management, Bureau for
             Management (M/IRM/TCO), covered eight telephone services and
             reached the following conclusions.

                                                             Risk Exposure
             Telephone Service                               High      Moderate          Low
             Calling cards
                                                                                          9
             Cell phones
                                                                              9
             Facsimile machines
                                                                                          9
             Local service
                                                                9
             Long distance service
                                                                9
             Network infrastructure (PBX – Private
             Branch Exchange)                                                 9
             Pagers
                                                                                          9
             Telephone directory
                                                                                          9
             Based on these assessments, we suggest that the Office of Information
             Resources Management focus its efforts on mitigating the higher risks
             associated with the areas identified above, i.e., the local and long distance
             telephone services (see page 16).

             In addition, we are making the following suggestions, which address
             issues that cut across several or all of the areas that we assessed, regardless
             of risk exposure:

             •   Written procedures are useful to standardize required or desired
                 internal control actions and to serve as guidelines for any new staff, as
                 well as for cross-training of current staff. These should include
                 inventory control and billing review procedures that produce a sound
                 basis for the administrative approval (or rejection) of contractor bills.

             •   Agency standards for the rationale (or criteria) of equipment issuance
                 are necessary.



                                                                                               14
•   Accountability standards should be formalized and required of
    employees who are issued equipment.

•   A rationale for the Agency policy allowing telephony equipment
    procurement by other Bureaus, whether with operating or program
    funds and for which there is no centralized control, should be
    reevaluated.

•   To afford adequate backup of TCO supervision and expertise in the
    office, one or more of the TCO staff positions should be upgraded to
    include higher-level telephony technical skills. This upgrade should
    be viewed as a prerequisite to implementing many of the suggestions
    contained in this report.

•   Budgets and expenditure tracking should be realigned to the major
    functional telephone service areas we assessed because certain costs
    are not easily distinguishable using the current coding system.

Calling cards

•   The need for calling cards should be revalidated with all employees
    currently holding cards, and specific accountability should be
    established.

•   Procedures need to be established to ensure that departing or rotating
    employees return telephone cards.

•   Spare cards that have not been issued need to be secured in a locked
    desk or container.

Cell phones

•   Management needs to establish improved cost visibility for
    determining trends, cost variances and potential impact on budget
    requirements.

•   Criteria and thresholds should be established for identifying calls that
    are to be included in a regular, periodic call detail certification process
    (see long distance below).

•   To prevent unrestrained demand, criteria or a rationale should be
    established as a basis for issuing a cell phone, as well as for issuing
    cell phone accessories.



                                                                                  15
Facsimile machines

•   Criteria should be established as the basis for issuing fax machines,
    including a standard such as number of employees per machine. In
    addition, use records should be maintained to determine if the need for
    a replacement or new machine could be filled by a little-used machine
    already in inventory .

•   Service and repair history records should be maintained to help effect
    control over repairs and serve as a basis for replacements.

Local service

•   A comprehensive analysis needs to be performed in order to identify
    with each provider the optimal number of leased dedicated trunk lines
    and overall optimum utilization, and to remove excess capacity (lines).

•   A monthly (electronic) review needs to be implemented that compares
    minutes billed for all calls to actual minutes independently determined,
    and that compares all those call rates billed to contracted rates.

Long distance

•   A detailed analysis (electronic) of all calls made since inception of
    Federal Telecommunications Service (FTS) 2001 (and as revised)
    contracts to date should be performed to determine rates and lengths of
    all calls as billed versus the rates as per contracts and lengths as per
    monitoring software. Subject to allowability per contract, requests for
    any reimbursements from vendors per these analyses should be
    submitted.

•   A procedure to assure that TCO obtains on a timely basis the changes
    that are made to the FTS 2001 rates should be implemented. Then, as
    these rate changes are obtained, they need to be programmed into the
    PBX so that the most economical rate between Sprint and AT&T is
    used on a country-by-country basis for the given effective rate periods
    under the FTS 2001 contracts.

•   A monthly (electronic) review comparing minutes billed for all calls to
    actual minutes independently determined and comparing all those call
    rates billed to contracted rates should be implemented.

•   A regular, periodic call detail certification procedure for long distance
    calls should be implemented.


                                                                                16
Network infrastructure (PBX)

•   As a follow-on to the October 2002 Disaster Recovery Analysis and
    Planning Report, the highest priority security and disaster concerns
    need to be identified and provided for. At a minimum, fire-fighting
    equipment, for example, CO2 bottle(s), should be immediately placed
    in the PBX rooms.

•   TCO should consider having performed a feasibility study covering all
    aspects for the replacement of the PBX (and replacement telephones as
    needed).      This study should also identify future budgeting
    requirements for this potentially extraordinary investment.

Pagers

•   An immediate follow-up should be initiated of TCO’s recent attempt
    to validate pager assignments, as well as to determine the continued
    need for pagers and to establish accountability on the part of
    employees using them. This should also help to establish a new, valid
    inventory.

•   Any excess pagers need to be returned to the supplier and termination
    of lease billings needs to be assured.

Telephone directory

•   Databases should be linked to enable more efficient automatic updates,
    which in turn would provide improved accuracy.
                           * * * * * * * * * * *


In response to our draft report containing the above suggestions, the
Telecommunications and Computer Operations Division (Office) of the
Office of Information Resources Management noted that some changes
had been contemplated during the period of the risk assessment. The
Office also asserted that, as a result of that process and our suggestions,
some changes have already been implemented and additional changes are
planned. For example:

•   After identifying that USAID/Washington had been significantly
    overcharged for international calls, the Office obtained an offer of
    reimbursement from the vendor. In addition, the Office plans on
    directing USAID/Washington staff to better utilize government and
    other currently available “toll free” links and, thereby, reduce further
    long distance costs.


                                                                               17
•   After completing a comprehensive utilization analysis, the Office is
    significantly consolidating and reducing its number of dedicated trunk
    lines, thereby reducing its local phone service costs. In addition, the
    Office plans to further reduce these costs by switching to lower cost
    local phone service vendors, followed by another reduction in trunk
    lines.

•   For the other major telephone service areas that we concluded were
    not at high risk as to economy and efficiency, the Office’s plans
    include

    1. installation of a system that will provide some emergency backup
       service to the PBX and enable the Office to better evaluate the
       potential for its eventual transition from the current PBX system;

    2. improved budgeting visibility, issuance criteria, and inventory
       control procedures for cell phones and fax machines;

    3. improved inventory and security procedures over long distance
       calling cards; and

    4. new PC software that will enable receipt and review of faxes on
       the PC, thereby reducing the use of and need for fax machines in
       the Ronald Reagan Building.




                                                                              18
                                                                                    Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General, Information Technology and Special
              Audits Division, conducted a risk assessment, especially in regard to
              economy and efficiency, of major telephone services managed and under
              control of the Telecommunications and Computer Operations Division of
              the Office of Information Resources Management, Bureau for
              Management (M/IRM/TCO). As such, it did not cover USAID’s overseas
              telephony-related operations, nor the other information technology
              activities for which the Telecommunications and Computer Operations
              Division is responsible: local area networks, electronic mail services,
              internet connectivity, wide area network, computer operations, etc.

              This risk assessment was not an audit. The risk assessment covered
              operations principally for fiscal year 2002 and operating expenditures of
              about $2.7 million. Costs related to USAID’s human resources were not
              reviewed; thus, any mention of costs throughout this report does not
              include them. The risk assessment fieldwork was conducted at USAID
              headquarters in Washington, D.C., from November 25, 2002 to March 31,
              2003.

              Our risk assessments of the Telecommunications and Computer
              Operations Division’s major telephone services have the following
              limitations in their application:

              •   First, we assessed risk at the major service level only, not at the
                  Division or Office level.

              •   Second, we assessed risk only. Our assessments were not sufficient to
                  make definitive determinations of the effectiveness of internal controls
                  for major services. Consequently, we did not generally (a) assess the
                  adequacy of internal control design, (b) determine if controls were
                  properly implemented, and (c) determine if transactions were properly
                  documented. If we were able to make these types of determinations
                  within the scope of our work, we reported on them accordingly as part
                  of our risk exposure assessments.

              •   Third, higher risk exposure assessments are not definitive indicators
                  that program objectives were not being achieved or that irregularities
                  were occurring. A higher risk exposure simply indicates that the
                  particular service is more vulnerable to such events.

              •   Fourth, risk exposure assessments, in isolation, are not an indicator of
                  management capability due to the fact that risk assessments consider



                                                                                             19
    both internal and external factors, some of which are outside the span
    of management control.

•   Fifth, comparison of risk exposure assessments between organizational
    units is of limited usefulness due to the fact that risk assessments
    consider both internal and external factors, some being outside the
    span of management control.

Methodology

We interviewed officials as well as reviewed related documentation of
major telephone services performed by the Telecommunications and
Computer Operations Division. These activities covered background
information, organization, management, budget, relevant laws and
regulations, staffing responsibilities, prior reviews, internal controls, and
risks (i.e., vulnerabilities). Our review of the Telecommunications and
Computer Operations Division’s documentation was limited and
judgmental in nature and conducted principally to confirm oral attestations
of management.

We identified the Telecommunications and Computer Operations
Division’s major telephone services using the input from the Manager of
the Voice Telecommunications Group and based primarily on the
significance of each major telephone service. We determined risk
exposure for all major telephone and related services, e.g., the likelihood
of significant abuse, illegal acts, and/or misuse of resources; failure to
achieve program objectives; and noncompliance with laws, regulations
and management policies as it primarily affects economy and efficiency.

We assessed overall risk as high, moderate, or low. A higher risk
exposure simply indicates that the particular telephone service was more
vulnerable to its program objectives not being achieved or that
irregularities were occurring.

We considered seven risk assessment factors as they primarily affect
economy and efficiency. The specific risk assessment factors were chosen
in order to provide us a sufficient basis (although not necessarily a
comprehensive one) to make our professional judgments of risk. Our risk
assessment factors were as follows.

(1) Costs—Total and unit annual costs (fiscal year 2002) and known
    future extraordinary investment costs.

(2) Costs transparency—The ready availability to management of data to
    determine both total and unit costs of the service.


                                                                                20
(3) Inherent complexity—Complexity based on technical issues and
    number of transactions or items requiring management action.

(4) Internal controls—Known aspects of documented internal control
    procedures, including billing reviews, inventory, procuring, staffing,
    and acknowledged weaknesses.

(5) Monitoring—Reporting requirements to more senior management and
    other oversight mechanisms.

(6) Planning—Planning for or assessment of needs, including future
    technology investment requirements.

(7) Prior reviews—Prior reviews of the service from external sources,
    internal sources, required annual internal control assessments, or
    reported cases of abuse or fraud.

As part of the assessment methodology, we identified, understood, and
documented (only as necessary) relevant internal controls, and we
determined what was already known about the effectiveness of those
controls. Our resulting assessment of risk was based on professional
judgment assessing the above varied risk assessment factors.
Consequently, we did not employ an overall materiality threshold for
assessing risk because the combination of these varied risk factors cannot
be readily reduced collectively to one strict overall numerical scoring
system or materiality threshold.




                                                                             21
                                                                                 Appendix II

Management
Comments   MEMORANDUM

          TO:     IG/A/ITSA, Melinda G. Dempsey

          FROM:         M/IRM/TCO, Gretchen Larrimer

          DATE:         July 3, 2003

          SUBJECT: M/IRM/TCO Comments on IG’s Risk Assessment of
          USAID/Washington’s Management of Telephone Services (Report No. A-000-03-
          00X-S)


          M/IRM appreciates the interest, thoughtfulness and courtesy shown by IG staff
          during the risk assessment of USAID/W’s management of telephone services.

          As you know, some changes were being contemplated during the period of the risk
          assessment. As a result of that process and the suggestions in IG’s Risk
          Assessment, some changes have already been implemented and some others are
          planned. Accordingly, IRM/TCO has the following comments, grouped by
          functional area.

          Long Distance Services

          IRM/TCO will tighten security procedures for unused long distance calling cards.
          In the future they will be kept in a locked desk or container. The Personnel Locator
          System (PLS) is now being used as a means to update the inventory of calling cards.
          This allows IRM/TCO to readily identify and cancel calling cards for staff who are
          no longer assigned to USAID/W, because the PLS contains organizational
          assignments for USAID staff. Additionally, the PLS is routinely modified by the
          telephone group when an employee leaves USAID or goes overseas, so they can see
          if an employee’s card needs to be canceled when the employee leaves. The
          telephone group routinely checks for calling card impact when notified of an
          employee’s departure from USAID/W.

          During the period of the risk assessment, IRM/TCO had reviewed charges of both of
          our commercial long distance vendors, AT&T and Sprint. IRM/TCO had tentatively
          concluded that USAID was being overcharged for international calls by a large
          amount by AT&T and by a much smaller amount by Sprint. Discussions with
          AT&T have resulted in AT&T’s identification of the cause of the erroneous billing,
          implementation of corrective action, and an offer of reimbursement. Continued
          discussions with Sprint eventually resulted in a satisfactory explanation of the
          discrepancy. IRM has asked both vendors to provide their rates for the next year of


                                                                                          22
their contract and to provide detailed explanations on how international call charges
will be calculated.

However, we believe that even more savings can result if USAID/W’s calls to
overseas missions can be made over dedicated government links, instead of using
any commercial long distance vendor. USAID can benefit from cost savings by
reducing international phone costs through enabling and encouraging the use of
“free” toll bypass methods. USAID has two such methods available: the Voice
Over Internet Protocol (VOIP) links provided by IRM’s telecommunications
upgrade project and, to a lesser extent, the Diplomatic Telecommunication Service’s
International Voice Gateway (IVG).

During the last two years, IRM has installed WARP/VOIP links to over 50 missions,
enabling most calls to these missions to be made toll free. Most missions use this
capability heavily, but traffic analysis shows that less than 5 percent of international
calls from USAID/W currently use these means. Consequently, IRM/TCO will
focus on finding ways to change the calling patterns of USAID/W staff as a
potentially rewarding way of cutting long distance costs.

Cell Phones and Pagers

IRM/TCO will establish a new budget line item within the IRM budget system
beginning in FY 2004 to be called Wireless Communications. This line item will
break out cell phone and pager costs from other voice communications costs, thus
giving increased visibility to this category.

IRM/TCO agrees that criteria for issuance of wireless devices/services should be
reviewed and documented. In addition, policy for funding of cell phones and cell
phone service will be documented.

IRM/TCO will formally document inventory control procedures for cell phones and
pagers and train staff in the new procedures.

IRM/TCO will update its inventory of pagers and validate current requirements.
Unneeded pagers will be returned to the vendor. IRM will keep unused pagers in a
locked desk or cabinet.

Faxes

IRM/TCO plans to provide every PC user with access to USAID/W’s voicemail
system via desktop software called Message Manager. Once the software is
installed, a fax can be sent to employee‘s telephones in RRB, and then stored in their
voicemail boxes. Every person will then be able to receive and review faxes solely
from their PC without the need to have them printed. (If a hard copy is needed, the
recorded fax can be sent to a printer or fax machine.) We envision that this will


                                                                                    23
drastically reduce wear and tear on fax machines, increase convenience for receiving
fax messages, and provide the capability of receiving faxes privately. The net effect
should be to reduce the need for new fax machines. Once this installation is
completed, within this calendar year, and customers have a chance to become
accustomed to the new capability, we will assess the need to review standards for
issuance of fax machines.

Local Telephone Service

IRM/TCO has now completed a comprehensive analysis of the number of trunk
lines needed for local phone service based on five months of traffic. As a result of
this review, an order has been submitted to Verizon to consolidate all five of the
current trunk groups with Verizon into a single trunk group that can support two-
way traffic and reduce the number of T-1 circuits from 13 to 8.

In addition to reviewing the number of trunks needed for local phone service,
IRM/TCO has investigated other possibilities for reducing local phone service costs.
Consequently, IRM is also planning to switch local phone service from Verizon to
Cavalier and GTI (using GSA’s WACS contract) since the cost is considerably
lower than Verizon’s tariff rates. According to the latest Cavalier proposal,
outbound calls from RRB to Cavalier will not be charged separately, but rather the
cost of the calls will be included in the set cost for the T-1 circuits. Consequently,
there will be no need to compare the number of calls in a Cavalier bill to the data
generated by our call detail reporting system. FYI, after Cavalier service has been
shown to be reliable, IRM/TCO plans to further reduce the number of Verizon T-1s
to further reduce local service costs.

Disaster Recovery

There is a fire extinguisher just ten paces outside of the PBX room, and the PBX
staff are aware of its location. Smoke detectors in the floor and ceiling of the PBX
room were checked in June 2003.

IRM/TCO is planning to install a LAN based IP phone system at the Tech Hub
within the next year. This system will provide some emergency backup telephone
service if the RRB PBX were to fail, and thus provide some disaster recovery
functionality. It will also enable USAID to better evaluate the potential of an
eventual transition at the RRB from a PBX phone system to a LAN based IP phone
system.

Telephone Directory

IRM/TCO is currently changing the way it receives telephone directory data.
IRM/SDM is replacing the Personnel Locator System with a new system called the
Employee Information Management System (EIMS). In addition, IRM/TCO is


                                                                                  24
planning to integrate data from the e-mail Global Address List (GAL) into the
telephone directory.




                                                                          25
